Office of
INSPECTOR GENERAL

 Semiannual Report




 October 1, 1997 - March 31, 1998




                                    April 1998
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON, D.C. 20436


 April 30, 1998

 TO: THE COMMISSION AND THE UNITED STATES CONGRESS

 I hereby submit this Semiannual Report: October I, 1997 - March 31, 1998, which
 summarizes the major activities and accomplishments of the Office ofInspector General
 (OIG), U.S. International Trade Commission. The submission of this report is in
 accordance with the Inspector General Act of 1978, as amended. Section 5 of the
 Inspector General Act requires that the Chairman transmit this report to the appropriate
 committees or subcommittees of the Congress within 30 days of its receipt.

 During this period, the OIG issued three audit reports addressing a major Commission
 program area and topics of current government wide interest. We initiated eight new
 investigations and closed eight investigations; several cases resulted in administrative
 actions and improved procedures. We reviewed legislation, regulations and internal
 directives, and served on the Directives Review Committee.

 We conducted an Evaluation of 332 Investigations and found that the Commission
 was achieving the desired result of producing a report that addressed the request or
 statutory requirement within the agreed upon or mandated time frame. We identified
 several ways to improve the process and assure Commission compliance with Federal
 regulations. Immediate action was taken on several recommendations. In February 1998,
 the Office of the United States Trade Representative established new procedures for
 coordinating the handling of requests for section 332 investigations. In March 1998, the
 United States Trade Representative provided updated guidance regarding the national
 security classification of all or portions of reports requested.

 We also completed a Review of the Commission's Implementation of Simplified
 Acquisition Procedures to determine what changes the Commission had made to
 policies and procedures pursuant to the Federal Acquisition Streamlining Act (FASA).
 We found that Commission guidance does not reflect revised acquisition thresholds and
 simplified acquisition procedures, and procurement policies do not promote FASA
 streamlined processes or the use of the purchase card. We made specific
 recommendations on how the Commission could formulate an agency acquisition
 policy that reflects both the letter and intent behind acquisition streamlining legislation.
 This policy would replace the current multi-approval, paper-intensive process.
The OIG completed several efforts related to the Government Performance and
Results Act. We conducted an inspection of the Commission's Performance
Measurement Goals. We found that some goals were not defined or expressed in
tangible, measurable objectives as required by the Results Act. Also, responsibility for
measuring the goals has not been clearly designated and, even when responsibility was
accepted, office directors usually had not developed plans for collecting data. Data were
available for measurement of most goals, but were not in a format that we could
evaluate to determine whether the Commission was actually achieving its goals.

The OIG completed several other efforts related to the Results Act. Our comments on
HR. 2883, "Government Performance and Results Act Technical Amendments," were
incorporated into a consolidated response by the Inspector General community. These
comments resulted in substantial changes to the original provisions of the bill. In
February 1998, the Inspector General was on a panel "Benchmarking for Success:
Implementing GPRA" and spoke about her experience with preparing an OIG Strategic
Plan and reviewing the Commission's Strategic Plan.

OIG investigations also had significant results this period as follows:

        In the prior period, we reported on an investigation of an employee who did not
        serve on ajury as claimed. He was absent without leave for five days and had
        made multiple false statements concerning his absences. Based on our findings,
        the employee was suspended for 21 days.

        A document determined to contain Confidential Business Information in a
        pending Commission investigation was found in an unsecured desk and office.
        The responsible employee was given an oral reprimand.

        In November 1997, the OIG began investigating abuse of the Commission's
        car pool subsidy program. Based on the preliminary results of the OIG
        investigation, to date, five Commission employees have withdrawn from
        participating in the Commission's car pool program, and three have revised
        their application. The Commission revised the program in order to deter fraud
        and abuse and required participants to reapply in April 1998.

I appreciate the support of all Commission employees in achieving the accomplishments
set forth in this report.



                                                J:::1~~
                                                   Inspector General
COMMISSION PROFILE

            The Commission is a quasi-judicial, independent, nonpartisan agency established by Congress
            with broad investigative powers on matters of trade. The Commission has a unique mission
            to develop factual, objective research and information on a wide variety of matters pertaining
            to international trade. Major Commission activities include: determining whether U.S.
            industries are materially injured by reason of subsidized imports or imports sold at less than
            fair value; directing action against such unfair trade practices as patent, trademark, and
            copyright infringement; conducting studies on tariff and trade issues; and participating in the
            development of statistical data on imports, exports, and domestic production and the
            establishment of an international harmonized commodity code.

            The Commission conducts investigations under several statutory provisions, generally upon
            petition or complaint, with respect to the impact of imports on U.S. industries. The
            Commission also provides advice and information, upon request, to the President and the
            Congress on tariff and trade matters. When appropriate, the Commissioners conduct public
            hearings and evaluate testimony and other information in making findings and
            recommendations. Decisions of the Commissioners under certain statutory provisions
            administered by the Commission are binding and subject to judicial review.

            The Commission has six Commissioners, appointed by the President and confirmed by the
            Senate, who serve one term of nine years, unless appointed to fill an unexpired term. The
            Chairman and Vice Chairman are designated by the President and serve a two-year statutory
            term. No more than three Commissioners may be of the same political party, and the
            Chairman must be of a different political party than the Chairman of the immediately
            preceding term. Three Commissioner positions currently are filled.

            Commissioner Don E. Newquist announced his resignation from the Commission effective
            January 31, 1998. Mr. Newquist was nominated by President Reagan in January 1988 to fill
            a vacancy on the Commission and was appointed to a nine-year term in October 1988.

            The Commission has an authorized staffing level of 502 permanent positions in FY 1998 of
            which 385.5 positions are funded at the $41.2 million level. All of its employees are located
            in one building at 500 E Street, SW, Washington, D.C.

            More information concerning the Commission may be obtained at http://www.usitc.gov.




                                                                 Ophelia McCardell, who provides
                                                                 support services throughout the
                                                                 Commission, assists with the OIG
                                                                 move during the Commission's
                                                                 repaint/recarpet project




March 1998 Semiannual Report
THE OFFICE OF INSPECTOR GENERAL
              The Commission established the Office ofinspector General (OIG) pursuant to the Inspector
              General Act Amendments of 1988 (PL. 100-504). The Inspector General reports directly to
              the Chairman, subject to the limitations of section 331 of the Tariff Act of 1930 (19 U.S.c.
              § 1331). The Inspector General is responsible for directing and carrying out audits,
              investigations and inspections relating to Commission programs and operations. The
              Inspector General also recommends and comments on proposed legislation, regulations and
              procedures as to their economy, efficiency and effectiveness. Certain information and
              statistics that are required by section 5(a) of the Inspector General Act to be included in the
              Semiannual Reports are summarized in Attachment A.


RESOURCES

I FY 1998          ~ An appropriation was enacted on November 13, 1997, which includes $41,200,000
~-----_•• for the salaries and expenses of the International Trade Commission for FY 1998. In
                      the FY 1998 expenditure plan adopted on December 2, 1998, the OIG was allocated
                      $50,000 for audit and review services.

                      The final staffing plan, dated March 2, 1998, authorized three full time equivalent
                      positions for permanent staffin the OIG based on a funding level of 385.5 positions.
                      This eliminated the excess staffing situation that existed in FY 1997.




                                          Dev Jagadesan joined the OIG staff
                                          as Counsel to the Inspector General
                                                 on October 26, 1997

                      Sharon Smith, the OIG staff assistant, was detailed to the Office of Equal
                      Employment Opportunity as of February 2, 1998, and reassigned to that office
                      effective March 29, 1998.




March 1998 Semiannual Report                        2
AUDIT ACCOMPLISHMENTS

                      Two audit reports were issued during this period. They were:
 Audits and
 Reviews
                                       IG-O 1-98, Evaluation of 332 Investigations; and

                                       IG-02-98, Review of Commission's Implementation of Simplified
                                       Acquisition Procedures.

                      The audit reports are summarized in Attachment B.

                      As of April 1, 1998, ongoing audits include:

                                       Commission's Response to Anticipated FY 1996 Appropriations;
                                       and

                                       Wage Payments by Associated Management Services, Inc.

I Audit Follow up I   In March 1998, pending actions on five audit reports were completed. Three of these
                      were identified in the prior semiannual report because the agreed-upon actions had
                      not been completed within one year. One additional report joined that category this
                      period.

                      IG-OI-96, Audit ofthe LAN Operations. Management agreement was reached on
                      this report on March 15, 1996. Actions completed this period included updating the
                      LAN Administrator Procedures Manual; preparing an ITC Net Security Plan that was
                      reviewed by an independent consultant for compliance with federal regulations;
                      establishing 'policy and preparing an initial inventory to identify and categorize
                      commercial software on agency systems; testing the ITC Disaster Recovery Plan and
                      correcting a number of points of contact and telephone numbers; and participating in
                      the development of an ITC directive on the use of agency facilities that addressed the
                      authorized use of computer facilities for non-official purposes.




                                             IG-02-96, Review of Building Security. Management
                                             agreement was reached on this report on April 30, 1996.
                                             Actions completed this period included gaining control over
                                             the parking garage; and fully implementing use of x-ray
                                             machines and magnetometers located at the main entrance to
                                             the building and the loading dock entrance.




March 1998 Semiannual Report                       3
                   IG-03-96, Audit of the USITC Imprest Funds. Management agreement was
                   reached on this report on August 30, 1996. Actions completed this period included
                   canceling the outdated directive on imprest fund operations and issuing an
                   administrative announcement with current procedures.

                   IG-01-97, Analysis of the USITC's Privacy Act System of Records. Management
                   agreement was reached on this report on March 19, 1997. Actions completed this
                   period included issuing a proposal to amend the Commission rules, revising ITC
                   forms to include a Privacy Act statement, and issuing an administrative
                   announcement to provide employees information about how the Commission
                   maintains certain forms and records that contain Privacy Act Information.

                   IG-02-97, Audit of the USITC Financial Statements for Fiscal Years 1996 and
                   1995. Management agreement was reached on this report on March 31, 1997.
                   Actions completed this period included conducting a physical inventory of property,
                   reconciling the fixed asset records, and issuing instructions to cost center managers
                   on the use of a new stamp for the receipt of goods and services.




March 1998 Semiannual Report                   4
INSPECTIONS

I Reports Issued              During this period one inspection report was issued.

                              Report No. ] -98           Review of the Commission's          Performance
                                                         Measurement Goals

I~
 Results Act       I          We initiated this inspection in December 1997 to evaluate the adequacy of
                              the Commission's plans and preparations for measuring performance, the
                              ability to accurately report on the performance measurement goals contained
                              in the] 997 Strategic Plan, and the achievement of those goals to date.

                              We found that some goals were not defined or expressed in tangible,
                              measurable objectives. Responsibility for measuring the goals has not been
                              clearly designated and, even when responsibility was accepted, office
                              directors usually had not developed plans for collecting data. Data were
                              available for measurement of most goals, but were not in a format that we
                              could evaluate to determine whether the Commission actually was achieving
                              the goals.



                                      Performance Measurement Goals
                                                 22.2%




                                                                   1m Not a Goal
                                                                   II Directional
                                                                   o Quanttiable


       Plans for Measuring Achievement                               Data Availability


                                                                  14.3%
                          17.9%




                                  II Flans
                                                                                                II Data
                                                                                     85.7%
                                  o No Aans                                                      o No Data



 March 1998 Semiannual Report                     5
FRAUD, WASTE AND ABUSE

I Investigations    I   A summary of investigative activity is presented below:




                        Six investigations were open at the beginning of this reporting period. Eight new
                        investigations were initiated during this reporting period. Two of the investigations
                        were open as of September 30, 1997 and six of the new investigations were closed
                        during this reporting period. These involved improper overtime authorization,
                        absence for jury duty, improper handling of confidential business information,
                        improper use of the agency van, abuse of E-mail, private use of Commission mail,
                        accuracy of overtime paid and identification of employee grade and step levels.

                        Six investigations remain open. These involve appropriateness of supervisory ratios,
                        reimbursement of program functions, procurement of an economic model, wage
                        payments, purchase of business card supplies, and abuse of the car pool subsidy.

         ~
I CBI Violation         A document determined to contain Confidential Business Information (CBI) in a
--------..              pending Commission investigation was found in a desk. That desk at various times,
                        as a result of Commission renovations, was left unsecured and was temporarily
                        moved into unsecured environments.

                        This matter was referred to the Director of Administration. Upon determining who
                        was responsible, the employee was given an oral reprimand for improperly handling
                        CBI.

                              When not in use and at the close ofeach day, Cbl must be stored in
                                 a steel filing cabinet or, when justified, in a secured office
                                    Under no circumstances can Clsl be left unsecured
                                                                                (USITC Directive 1355)

I Jury Duty       • In the last semiannual report, we described our investigation of an employee who
....- - - - - - . . claimed to have served on ajury for five days, but in fact was dismissed by the court
                    after one day. The employee was absent without leave for five days and had made
                    multiple false statements concerning his absence.

                        Based on our findings, the employee was suspended for 21 days. The employee
                        began serving his suspension on November 2 and returned to work on November 23,
                        1997. The employee subsequently appealed the suspension to MSPB on December
                        2, 1997. The employee withdrew his appeal on March 10, 1998.




 March 1998 Semiannual Report                       6
I Vehicle Use    ~    The OIG observed an occasion in November 1997 when the Commission van was
""-             .1    used to take Commission employees to a luncheon that was predominantly personal
                      in nature. The Commission's Directive on the use ofthe Commission's vehicle, which
                      prohibited such use, was canceled in 1996. We concluded that no costs needed to be
                      recouped in this case due to the de minimis amount involved but that a Directive
                      should be promptly issued governing the rules and procedures for using the
                      Commission's vehicle. On March 23, 1998, the Commission issued an Administrative
                      Announcement governing the use of agency vehicles.




                                               Drivers Johnny Davis and West Otis
                                                 with the agency sedan and van


""-------.1
I CarPool        I.   In November 1997, the OIG began investigating abuse of the Commission's car
                      pool subsidy program. The investigation covered car pool applications for the July
                      - December 1997 and the January - December 1998 time periods. The preliminary
                      results of the OIG investigation are that some employees were potentially fraudulently
                      participating in the car pool program, some employees were misrepresenting criteria
                      that would affect their ranking in the program, and some employees were unaware of
                      the requirements of the program. A check of the records at 33 agencies revealed that
                      22 of the 56 riders had some significant error on the Commission's car pool
                      application or were participating in some type of commuter subsidy program within
                      their own agency. Five Commission employees to this date have withdrawn from
                      participating in the Commission's car pool program, and three have revised their
                      applications.

                      As a result of the OIG's preliminary recommendations, the Commission revised the
                      car pool program in order to deter fraud and abuse. A revised application warning
                      of the penalties for making false statements to the government was developed.
                      Participants reapplied in April under new guidelines limiting rider participation to
                      full-time riders.




March 1998 Semiannual Report                       7
                       We conducted an investigation to determine whether Commission employees seeking
 EEO
                       reimbursements for expenses incurred as a result of their involvement in Equal
 Reim bursements
                       Employment Opportunity (EEO) related programs and activities had received
                       disparate treatment. The Report of Investigation presenting our findings was issued
                       to the Commission on September 30, 1997.

                       The Director of Administration agreed to formulate an internal rule on eligible EEO
                       expenses which has not yet been developed. We suggested that USITC Directive
                       3602.1, Imprest Fund Claims and Advances, be revised to set forth which employees
                       are responsible for knowing what constitutes an eligible expense and for attesting to
                       the eligibility of the expenses. USITC Administrative Announcement FY 98-10,
                       Imprest Fund Operations, dated March 23, 1998, which established procedures for
                       obtaining advances and reimbursement from the imprest fund, partially addressed our
                       suggestion.

                       Additionally, we recommended that the Director of EEO be reimbursed for the
                       expense of an Irish Band. The Director of OFB disagreed that this was an eligible
                       expense. Therefore, OIG and Director ofOFB each requested a GAO opinion on the
                       reimbursement. On March 4, 1998, a GAO Attorney stated the opinion regarding this
                       expense would be written within the next couple of months.

I Telephone Use    ~
                   •
                       In August 1996, the OIG issued a Report of Investigation on a case of telephone
                       misuse and OIG Inspection Report 15-96, Implementation of Commission Policy on
                       Use of Telephones. In the latter report, we suggested that the Commission policy on
                       payments for unauthorized personal calls be clarified. In accordance with Federal
                       Property Management Regulations, the amount due should be calculated using the
                       commercial rate and an administrative fee per call.

                       The Commission clarified the policy on unauthorized personal use of telephones in
                       Directive 3551.0, Use of Agency Facilities, issued on March 3,1998. The Directive
                       authorizes the collection of an administrative fee per call for unauthorized personal
                       calls. The fee was established as $.35 per call in Administrative Order 98-04 issued
                       on March 4, 1998, unless the Office of Finance and Budget determines the fee is
                       substantially different from $.35.

                       We objected to both the amount and the manner in which the $.35 was determined.
                       Federal regulations state that figure must be calculated based upon an analysis of the
                       cost of identifying and collecting the cost of the unauthorized call. The $.35 amount
                       was selected rather than calculated. Additionally, the regulations state the fee is to
                       be rounded to the nearest dollar. We believe this establishes a minimum charge of
                       $1.00 per call as rounding down would result in no fee.

                       We previously reported that the Commission had routinely made offsets subject to the
                       Debt Collection Act of 1983 and the Debt Collection Improvement Act of 1996
                       although it lacked its own regulations in this area. The Commission has operated
                       under interim procedural rules for salary offset, administrative offset and tax refund
                       offset published in the Federal Register on July 16, 1997. Final rules are anticipated
                       to be published within several months.




 March 1998 Semiannual Report                       8
Review of Legislation, Regulations, and Commission Policy

                        As set forth in the Inspector General Act, a duty and responsibility of the Inspector
 Legislation and
                        General is to review existing and proposed legislation and regulations relating to
 Regulations
                        programs and operations of the Commission. We commented on House Resolution
                        2883 and reviewed two notices of proposed amendments to the Commission's rules
                        of practice and procedure.

I Results Act      I.   In December 1997, OIG commented on H.R. 2883, "Government Performance and
"-                 .1   Results Act Technical Amendments" which would have required IG's to conduct
                        audits of program performance reports every three years. OIG noted the additional
                        burden the amendments would place on Inspectors General as a whole. Additionally,
                        OIG suggested that the audit requirement be changed to a single audit, and the
                        necessity of future audits be left to the discretion of the Inspector General. These
                        comments were incorporated into a consolidated response. The bill, as passed on
                        March 12, 1998, was consistent with the comments submitted and included
                        substantial changes to the original provisions affecting OIGs.

I Proposed Rule    I.   Revision of Public Notice, Freedom of Information Act, and Privacy Act
                   I    Regulations, and Implementation of Electronic Freedom of Information Act
                        Amendments of 1996. In the prior semiannual report period, we reviewed the
                        proposed rule amendments to parts 200 and 201 of the Commission's Rules of
                        Practice and Procedure. The proposed amendments to the Privacy Act rules
                        incorporated the OIG recommendations in Report No. IG-01-97. The revised notice
                        of proposed rulemaking was issued on November 7, 1997, without the amendments
                        to part 200 on Employee Conduct. The Commission did not receive any comments
                        by the close of the comment period on December 16,1997. The draft notice of final
                        rulemaking was approved by the Commission on April 23, 1998.

I Sunset Reviews    ~
                    ,
                        Amendments to Parts 201 and 207 of Commission Rules of Practice and
                        Procedure. On October 6, 1997, the OIG reviewed the notice of procedures for the
                        conduct of five-year reviews of antidumping and countervailing duty orders and
                        suspension agreements and provided comments. Most significantly, the OIG said that
                        the draft rule needed to state how the comments received would be made available
                        for rebuttal comments. On October 23, 1997, the Commission published the Notice
                        of Proposed Amendments; the OIG comments were satisfactorily incorporated.

                        The Inspector General also has the responsibility to review all proposed Commission
 Commission
                        directives. The OIG evaluates the impact that new or revised procedures will have
 Policy
                        on economy and efficiency in the administration of programs and operations, and to
                        minimize the potential for fraud or abuse. OIG reviewed and commented on seven
                        draft internal rules concerning use of agency facilities, agency forms and records,
                        imprest fund operations, use of agency vehicles, system of internal rules, property
                        management and the car pool program. Additionally, OIG reviewed the mission and
                        functions statements for all Commission offices.

                        As previously reported, the Offices of Administration, Management Services and
                        Information Services and the OIG have made a substantial effort in preparing new


March 1998 Semiannual Report                        9
                       policy guidance to help correct the recurring problems with property management.
                       Final issuance of USITC Directive 3550.3, Property Management, was deferred
                       pending development of an internal rule on safeguarding Automated Data Property
                       (ADP) equipment. A draft Administrative Notice on ADP Inventory Procedures was
                       circulated to office directors for comment. A physical inventory, which was needed
                       in order to implement the changes in the new policy and procedures, was completed
                       in March 1998.

                       The Inspector General is also a member of the Directives Review Committee. Other
                       members are the Director of Administration, who is the Chairman, and stafffrom the
                       Offices of the Vice Chairman, General Counsel, and Management Services. The
                       Committee has made significant progress in revising the internal rules structure and
                       process. A draft directive was sent to the Commission for comment in March 1998.
                       The Committee also reviewed the mission and functions statements for each office
                       and made recommendations for improvements and standardization. These statements
                       are undergoing final revisions before Commission review.

I Policy for OIG   ~
                   •
                       In the prior reporting period, the OIG revised three directives governing its internal
                       policies. This period, the OIG adopted responsibility for converting one
                       administrative order on review of legislation and regulations into a directive.
                       Directive 1704, Review of Legislation and Regulations, was drafted, distributed to
                       the office directors and Commissioners for comment, and sent to the Chairman on
                       March 30, 1998, for approval.

                       The OIG also revised its Mission and Functions Statement. Although the Directive
                       was issued on August 21, 1997, a revision was made to conform to the decision to
                       standardize various aspects of the mission and functions statements for each office.




March 1998 Semiannual Report                       10
LIAISON ACTIVITIES

I ECIE/PCIE~               The Inspector General is an active member of the Inspector General community. She
............               is a member of the Executive Council on Integrity and Efficiency (ECIE), which
                           consists primarily of the Inspectors General at the 34 Federal entities designated in
                           the 1988 amendments to the Act. She also participates in activities sponsored by the
                           President's Council on Integrity and Efficiency (PCIE), which consists primarily of
                           the Presidentially-appointed Inspectors General. The ECIE and PCIE have identical
                           functions and joint responsibility to promote integrity and efficiency and to detect and
                           prevent fraud, waste, and abuse in Federal programs.

                           In February 1997, the Inspector General attended the PCIEIECIE retreat. She was one
                           of four speakers on a panel "Benchmarking for Success: Implementing GPRA."
                           She summarized her experience with preparing an GIG Strategic Plan and reviewing
                           the Commission's Strategic Plan into six lessons learned.


                                               LESSONS LEARNED ON STRATEGIC PLANNING
                                                  1. Keep It Simple
                                                  2. Do not Limit Goals to What You Can Control
                                                  3. Identify Primary (not all) Customers
                                                  4. Limit Use of Customer Surveys
                                                  5. Build on Current Data Systems
                                                  6. Increase OIG and Agency Interface


                           The GIG also participated in numerous surveys conducted by the PCIE/ECIE. Three
                           efforts had the most significance. She provided input on the effect of a Court holding
                           that would unduly interfere with the ability to conduct investigations offraud, waste,
                           and abuse by restricting access to employees. She identified nine topics for
                           consideration as proposals for legislative initiatives for changes in the Inspector
                           General Act. She assisted the Inspector General of the Federal Trade Commission in
                           preparing a response to the language proposed by the AICPA's Ethics Committee on
                           the independence of government auditors.

I Hotiine/EthicsLine   I   GIG continued its use of EthicsLine to monitor hotline calls and faxes 24 hours a day,
                           7 days a week. EthicsLine has been successful and economical. To remind
                           employees of EthicsLine existence and function, an administrative announcement
                           was issued in November 1997 with a card that could be detached.
~~-~
                           EthicsLine can be reached by calling 1-800-500-0333 or faxing information to 1-800-
                           500-0993. EthicsLine reports allegations to the OIG within one business day of the
    1-806-5011-0993
                           call.

.....- -.....- .....- - - - ' In February 1998, the Commission began hosting several web pages containing
                              general information about GIG on its Internet server. The web pages include the
                              Mission and Functions of the GIG and Hotline contact information. We also
                              established an E-mail hotline that can be accessed through the Internet. The E-mail
                              address, which is IGHotline@usitc.gov, is posted on the Commission's web site.


 March 1998 Semiannual Report                           II
                     Anyone with Internet access can send an E-mail message to OIG. Visitors to the site
                     are reminded that E-mail messages can be monitored. A disclaimer is posted warning
                     anyone using the E-mail hotline that their messages potentially lose their anonymity
                     and consequently they agree to waive their confidentiality. Therefore, the traditional
                     methods of contacting the OIG hotline are also posted, should confidentiality be an
                     Issue.

I Inter/IntraNet ~   Information about the OIG also may be directly accessed on the IGnet at
__•••••••1           www.ignet.govoronwww.usitc.gov/oigwhichcontains several links to various areas
                     of the IGnet for more in-depth information and OIG reports. The IGnet is also linked
                     to the Commission's homepage.

                     In March 1998, the OIG began posting audit and inspection reports on the
                     Commission's Intranet. Thus, all Commission employees now have access to Audit
                     and Inspection Reports via their computers.

                     The Inspector General Act states that each Inspector General shall give particular
 General
                     regard to the activities of the Comptroller General of the United States with a view
 Accounting
                     toward avoiding duplication and ensuring effective coordination and cooperation.
 Office
                     The General Accounting Office initiated four reviews during this period. These were
                     on Safeguards Available to US Agricultural Producers, the Inspector General
                     Community, Economic Import of Coastwise Trade Laws, and China's Accession to
                     the World Trade Organization.

                     GAO issued two reports entitled:

                     -- Assistance Available to U.S. Agricultural Producers under U.S. Trade Law; and

                     -- Maritime Issues: Assessment of the lTC's 1995 Analysis of the Economic Impact
                     of the Jones Act.

                     These reports included no recommendations for the Commission.




March 1998 Semiannual Report                     12
                                                                                                   Attachment A


INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period are required by section
Sea) of the Act to be included in the semiannual reports. These are set forth below:

Section 5(a)

(1), (2), (7)    The GIG did not identify any significant problems, abuses or deficiencies relating to the
                 administration of programs.


(3)              Corrective action has been completed on all significant recommendations which were
                 described in the previous semiannual reports. See page 3 discussion on Audit Followup.


(4)              No matters were referred to prosecutorial authorities.        There were no prosecutions or
                 convictions.


(5)              No reports were made to the Chairman that information or assistance requested by the
                 Inspector General was unreasonably refused or not provided.


(6)              A listing by subject matter is located in Attachment C.


(8), (9)         Two audit reports were issued during this period; there were no recommendations on
                 questioned costs or funds that could be put to better use. See Tables I and 2.


(10)             There are no audit reports issued before the commencement of the reporting period for which
                 no management decision has been made by the end of the reporting period.


(11)             No significant revised management decisions were made during the reporting period.


(12)             There were no significant management decisions with which I am in disagreement.




 March 1998 Semiannual Report                           13
                                                                                            Attachment B


SUMMARY OF AUDIT REPORTS

Title:             Evaluation of 332 Investigations

Report Number:     IG-Ol-98

Report Date:       February 27, 1998

Findings:          The objective of this evaluation was to determine (1) whether the desired results in
                   conducting section 332 investigations were being achieved, (2) the effectiveness of the
                   process, and (3) compliance with applicable laws and regulations.

                   We found that section 332 investigations were achieving the desired result of
                   producing a report that addressed the request or statutory requirement within the agreed
                   upon or mandated time frame. We identified several ways to improve the process and
                   ensure Commission compliance with federal regulations.

Recommendations:   We recommended that the Director of Operations:

                   -- Develop guidance on time frames needed to conduct an investigation;

                   -- Obtain classification instructions for section 332 investigations that comply with
                   terms of the national security classification system;

                   -- Prepare instructions for marking, handling, and safekeeping classified material;

                   -- Review all working papers for ongoing investigations and classified reports to
                   ensure that documents are properly classified and marked;

                   -- Clarify the roles of primary reviewers and others in conducting primary review;

                   -- Clarify guidance on briefings to evaluate completed studies;

                   -- Revise Commission rules to correct inaccuracies and delete unnecessary
                   requirements; and

                   -- Determine the proper record retention policies.

                   The Director of Operations agreed with most of the findings and recommendations.
                   Although he disagreed with several findings, he agreed to implement the recommended
                   or alternative corrective actions. Immediate action was taken on several
                   recommendations. In February 1998, the Office of the United States Trade
                   Representative established new procedures for coordinating the handling of requests
                   for section 332 investigations. In March 1998, the United States Trade Representative
                   provided updated guidance regarding the national security classification of all or
                   portions of reports requested.


 March 1998 Semiannual Report                    14
Daniel Leahy, Director of Extemal Relations, with Fred Montgomery,
the Assistant u.s. Trade Representative for Policy Coordination,
who was designated as the ITC point of contact in February 1998




                                           Auditors from Dembo, Jones, Healy, Pennington & Ahalt,
                                           procurement officials, and GIG staff at the exit conference for
                                           simplified acquisition procedures




 March 1998 Semiannual Report                     15
Title:              Review of Commission's Implementation of Simplified Acquisition Procedures

Report Number:      IG-02-98

Report Date:        March 19,1998

Findings:           The objective of this review was to 1) determine what changes the Commission had
                    made to policies and procedures pursuant to the Federal Acquisition Streamlining Act
                    (FASA) concerning the use of purchase cards, micro-purchases, and small purchases;
                    and 2) identify ways in which the Commission could further streamline the
                    procurement process.

                    We found that Commission guidance does not reflect revised acquisition thresholds
                    and simplified acquisition procedures. Current procurement policies do not promote
                    FASA streamlined processes or the use of the purchase card. Instead, the policies set
                    forth a multi-approval, paper-intensive process.

Recommendations:    The Commission needs to formulate an agency acquisition policy that: reflects both the
                    letter and intent behind recent acquisition streamlining legislation; encourages and
                    empowers Commission employees to focus on results instead of process; rewards
                    creativity and ingenuity and accepts a degree of risk as part and parcel of the cost of
                    change; permits staff to apply professional judgment as well as knowledge, skills, and
                    abilities inherent to their positions; and replaces written paper-intensive approval
                    points with decision points that can be verified periodically.

                    We specifically recommended that the Director of Administration:

                    -- Simplify the procurement process by using bulk funding, eliminating unnecessary
                    forms and approvals, using Visa checks, increasing the use of purchase cards, and
                    automating procedures;

                    -- Improve internal controls by canceling unneeded purchase card authority, using
                    built-in automated purchase card controls, performing periodic verifications of
                    purchase card transactions, and strengthening record management procedures; and

                     -- Establish formal requirements for training cardholders before issuance of purchase
                   . cards and non-procurement staff on an ongoing basis.

                    The Director of Administration agreed with the need for a new and significantly
                    revised acquisition policy and implementation of simplified procedures.




March 1998 Semiannual Report                     16
                                                                         Attachment C


AUDIT REPORTS BY SUBJECT MATTER
                                                                        Funds To
       Report       Report     Questioned    Unsupported   Ineligible   Be PutTo
        Title       Number       Costs          Costs        Costs      Better Use


PUBLIC INVESTIGATIONS AND RESEARCH STUDIES

Evaluation of 332   IG-OI-98       o              o            o            o
Investigations

ADMINISTRATION

Review of           IG-02-97       o              o            o            o
Commission's
Implementation of
Simplified
Acquisition
Procedures




March 1998 Semiannual Report                17
                                                                                Table 1


      REPORTS WITH QUESTIONED COSTS
                                                                      Dollar Value

                                                  Number of   Questioned Unsupported
                                                   Reports      Costs       Costs

      A. For which no management
         decision has been made by the
         commencement of the period                   0           0              0


      B.   Which were issued during the
           reporting period                           0           0              0

           Subtotals (A+B)                            0           0              0


      C.   For which a management decision
           was made during the reporting
           period                                     0           0              0

           (I)    Dollar value of
                  disallowed costs                    0           0              0

           (ii)   Dollar value of costs
                  not disallowed                      0           0              0


      D. For which no management
         decision has been made by
         the end of the reporting
         period                                       0           0              0

           Reports for which no
           management decision was
           made within six months of
           Issuance                                   0           0              0




March 1998 Semiannual Report                 18
                                                                       Table 2


      REPORTS WITH RECOMMENDATIONS
      THAT FUNDS BE PUT TO BETTER USE
                                                  Number of   Dollar
                                                  Reports     Value

      A.   For which no management
           decision has been made by the
           commencement of the period                0         0


      B.   Which were issued during the
           reporting period                          0         0

           Subtotals (A+B)                           0         0


      C.   For which a management decision
           was made during the reporting
           period                                    0         0

           (I)    Dollar value ofrecom-
                  mendations that were
                  agreed to by management            0         0

           (ii)   Dollar value ofrecom-
                  mendations that were
                  not agreed to by
                  management                         0         0


      D. For which no management
         decision has been made by
         the end of the reporting                    0         0
         period

           Reports for which no
           management decision was
           made within six months of
           Issuance                                  0         0




March 1998 Semiannual Report                 19
                     P~ Ut      tIu4 ~ 'Ze/MJtt
                               weu~4
                 ~~ ~f4k,  1Ii4«at 1~at«ue S~,
                          P~ V~, tJ'htS




March 1998 Semiannual Report
